Choice and Secured Variable Visa Credit Card Agreement
This Agreement covers this Visa Credit Card account, issued by Whatcom Educational Credit Union (WECU). In this Agreement the
words “you,” “your,” “yours,” “applicant,” and “Borrowers” mean any person who signs the application for this Account, any joint obligor,
guarantor, authorized user, or the person whose name is embossed on the Card. The words “we,” “us,” “our,” “Lender,” and “the Credit
Union” mean WECU. The word “Card” means any one or more credit card(s) issued to you under the Credit Union’s WECU Choice Visa
and Secured Variable Visa Card program. If you sign an application for this Account or sign or use any Card or PIN, or allow others to use
the Card or PIN, you and they will have accepted this Agreement just as if you and they signed it, and you and they, jointly and severally,
will be bound by the following terms and conditions and Account Interest Rates and Charges disclosures accompanying this Agreement,
which will govern this Account.
Keep this document for future use. This notice contains information about your rights and our responsibilities under the Fair Credit Billing Act.
TO REPORT A LOST OR STOLEN VISA CARD: During regular business hours call WECU. After hours and weekends call 800-682-6075.
1. Responsibility. If we issue you a Card, by signing or using your
Card or account number for any transaction, you agree to repay all
debts and the Interest Charge arising from the use of the Card
and the Card account. For example, you are responsible for charges
made by yourself, your spouse and minor children. You are also
responsible for charges made by anyone else to whom you give the
Card, and this responsibility continues until the Card is recovered.
You cannot disclaim responsibility by notifying us, but we will close
the account for new transactions if you so request and return all
Cards. Your obligation to pay the account balance continues even
though an agreement, divorce decree or other court judgment to
which we are not a party may direct you or one of the other persons
responsible to pay the account. Any person using the Card is jointly
responsible with you for charges he or she makes, but if that person
signs the Card he or she becomes a party to this agreement and
is also jointly responsible for all charges on the account, including
yours.
2. Lost Card Notification. If you believe the Card has been lost or
stolen, you will report it immediately. During regular business hours,
call the Credit Union at 360-676-1168 or 800-525-8703, press 1.
After hours and on weekends call 800-682-6075.
3. Liability for Unauthorized Use. You agree to notify us
immediately, orally or in writing, of the loss, theft or unauthorized use
of your Credit Card. If you notify us of your lost or stolen credit card
after discovery, you may not be liable for any losses related to credit
transactions. You may not be liable for an unauthorized transaction,
as long as you have exercised reasonable care in safeguarding
the Card from risk of loss or theft, and upon becoming aware, you
promptly report the loss or theft to us, otherwise your liability for
unauthorized credit card transactions shall not exceed $50.00.
4. Credit Line. If we approve your application, we will establish a
self-replenishing Line of Credit for you and notify you of its amount
when we issue the Card. You agree not to let the account balance
exceed this approved Credit Line. Each payment you make on the
account will restore your Credit Line by the amount of the payment,
which is applied to principal. You may request an increase in
your Credit Line only by written application to us, which must be
approved by our credit committee or loan officer. By giving you
written notice our credit committee may reduce your Credit Line from
time to time, or with good cause, revoke your Card and terminate
this Agreement. Good cause includes your failure to comply with this
agreement or our adverse reevaluation of your credit worthiness.
You may also terminate this Agreement at any time, but termination
by either of us does not affect your obligation to pay the account
balance. The Cards remain our property and you must recover and
surrender to us all Cards upon our request and upon termination of

wecu.com | 800-525-8703 | PO Box 9750, Bellingham, WA 98227

this Agreement.
5. Credit Information. You authorize us to investigate your credit
standing when opening, renewing or reviewing your account, and
you authorize us to disclose information regarding your account
to credit bureaus and other creditors who inquire of us about your
credit standing, to the extent authorized in our bylaws.
6. Monthly Payment.
A. Minimum Monthly payment. We will mail you a statement
every month if your account has a balance. You agree that you will
pay each month not less than the minimum monthly payment on
or before the scheduled monthly due date. The minimum monthly
payment will be 3.0% of your outstanding balance (“New Balance”)
or $20.00, whichever is greater. If your outstanding balance is
$20.00 or less, you agree to pay the balance in full. You may pay
in full for all your purchases and cash advances each month,
or you may repay in monthly installments. We can accept late
payments or partial payments, or checks, drafts, or money orders
marked “payment in full” without prejudice to our rights under this
Agreement, which are hereby explicitly reserved. A credit posting
from a merchant or reversal of fees do not constitute a minimum
payment. The minimum monthly payment may be allocated at
the Credit Union’s discretion to pay off lower rate balances, such
as promotional offers, before higher rate balances, such as cash
advances or purchases. Payments in excess of the minimum
monthly payment will be allocated first to higher rate balances,
as applicable. From time to time, we may allow you to skip your
minimum monthly payment due. If you choose to skip this payment,
Interest Charges will continue to accrue in accordance with this
Agreement. Payments received at WECU, PO Box 9750, Bellingham
WA 98227 at or before 5:00pm Pacific Time on any business day
will be credited to your Account as of that date; payments received
by mail at that address after 5:00pm Pacific Time, on a weekend
or federal holiday will be posted to your Account as of the next
business day. Payment crediting to your Account may be delayed up
to five days if your payment is received by mail at any other address
or not accompanied by the remittance portion of your Account
statement.
B. Payment method. You may make your monthly payment by
either an electronic or manual payment method. Electronic payment
methods include payment transfers made through Online Banking,
Telephone Banking, periodic preauthorized debits or payroll
deduction. Manual payment methods include payments made in
person, by mail, or telephone instructions through the Contact
Center.
7. Interest Charge. An Interest Charge will be imposed on
purchases included in the New Balance that remain unpaid on the

Page 1 of 3 | Revised 03/2021 | Insured by NCUA

Choice and Secured Variable Visa Credit Card Agreement
10th day of the month following the billing cycle. This “grace period”
allows you to avoid an Interest Charge on purchases for a billing
cycle. However, if you do not pay the New Balance for purchases
within the grace period, your Interest Charge will accrue on any
purchase transaction from the date of purchase. Your Account has
a variable rate feature and the Periodic Rate and corresponding
Annual Percentage Rate (Interest Rate). The Interest Rate is based
on the value of an index and can change monthly effective the first
day of the billing cycle. The index is: The Wall Street Journal Prime
rate on the first day of each month as published in The Wall Street
Journal, divided by 3 and rounded up to the nearest .50%. We
add a margin of 8.4, 11.4 or 18.4 to the index. The margin we add
is based on your creditworthiness. The total of the index plus the
margin amount that we add is the Interest Rate. The Interest Rate
includes only interest and no other costs. Any increase or decrease
in the Interest Rate will affect the amount and number of the monthly
payments you will make. The amount of the margin and the current
Interest Rate that will apply to your Account will be disclosed with
your Card.
Interest Charges are calculated at the daily Periodic Rate (the
Annual Percentage Rate divided by 365; for example, an APR of
13.4% would have a daily Periodic Rate of 0.036712%), on the
average daily balances of purchases, balance transfers and cash
advances in the account. We figure the Periodic Interest Charge
on your Account by applying the Periodic Rate to the “Average
Daily Balance” of the account including current purchases and
cash advances for your Account. We take the beginning purchase
and cash advance balances of your Account each day, add any
new purchases and cash advances and subtract any payments or
credits, unpaid Interest Charges and unpaid late charges to get
the daily balance. We then add up all the daily balances and divide
by the number of days in the billing cycle to get the Average Daily
Balance. The Interest Charge is determined by multiplying the
average daily balance by the number of days in the billing cycle
and applying the Periodic Rate to the amount. No Interest Charge
is imposed on purchases to the extent payments and credits
for purchases are made on or before the 10th day of the month
following the previous billing cycle.
8. Other Charges. Your account will be subject to other charges
including, without limitation, a NSF check charge $5.00; a late
charge of up to $25.00 will be assessed if your payment is not
received within 10 days of the date due; copies of drafts $12.00;
plastic replacement cost of $5.00.
9. ATM Fees. If you use an ATM to obtain a cash advance and
the ATM is not operated by us, you may be charged an ATM
surcharge by the ATM operator or an ATM network utilized for such
a transaction. The ATM surcharge may be charged to your account if
you complete the transaction.
10. Default. You will be in default if your payments are not made
when due. You will also be in default if your ability to repay us is
materially reduced by a change in your employment, an increase
in your obligations, bankruptcy or insolvency proceedings involving
you, your death or your failure to abide by this Agreement, or if
the value of our security interest materially declines. We have the
right to demand immediate payment of your full account balance
if you default, subject to our giving you any notice required by law.
To the extent permitted by law, you will also be required to pay our
collection expenses, including court costs and reasonable attorney’s
wecu.com | 800-525-8703 | PO Box 9750, Bellingham, WA 98227

fees.
11. Accessing Your Account. You may access your Account by
using your Card and Personal Identification Number (PIN), balance
transfer coupons, or authorizing transactions with your account
number over the phone or Internet. Additionally, you may access
your available balance via Online or Mobile Banking.
A. Card use. To make a purchase or cash advance, you must
comply with the Credit Union’s procedures for authorizing such
transactions. You may present your Card to a participating Visa
plan merchant, to us or to another financial institution, and sign the
sales or cash advance draft which will be imprinted with your Card.
You may complete the transaction by using your PIN in conjunction
with the Card in an Automated Teller Machine (ATM) or other type
of electronic terminal that provides access to the Visa system. You
may authorize a purchase transaction with merchants by providing
your Card account number and expiration date for transactions
over the telephone or Internet. The monthly statement will identify
the merchant, electronic terminal or financial institution at which
transactions were made, but sales, cash advance, and credit or
other slips cannot be returned with the statement. You will retain
the copy of such slips furnished at the time of the transaction in
order to verify the monthly statement. The Credit Union may make a
reasonable charge for photocopies of sales slips you may request.
You may not use the Card for any illegal or unlawful transaction,
including Internet gambling transactions, and we may decline to
authorize any transaction that we believe poses an undue risk of
illegality or unlawfulness.
B. Balance transfer coupons. If the Credit Union approves, you
may access your account and obtain advances by signing a balance
transfer coupon and authorizing the Credit Union to pay off existing
obligations of other financial institutions. Your use of a balance
transfer coupon will be shown as a credit advance on your monthly
statement. The Credit Union may not complete your balance transfer
request if the transfer advance would exceed your credit limit or your
account has been terminated or suspended.
C. Online and Mobile Banking Cash Advance. You must be
enrolled in Online Banking in order to access your line of credit
via Online or Mobile Banking. Utilizing the transfer function within
Online or Mobile Banking to access your line of credit will result in a
cash advance and be reflected as such on your monthly statement.
WECU may not complete your transfer advance request if the
transfer advance would exceed your credit limit or your account has
been terminated or suspended.
12. Returns and Adjustments. Merchants and others who honor
the Card may give credit for returns or adjustments, and they will do
so by sending us a credit slip, which we will post to your account.
If your credits and payments exceed what you owe us, we will hold
and apply this credit balance against future purchases and cash
advances, or if it is $1.00 or more, refund it on your written request
in good faith after six months.
13. Currency Conversion / Foreign Transactions. Purchases
and cash advances made in foreign countries will be billed to
you in U.S. dollars. The currency conversion rate for international
transactions as established by Visa International, Inc. is a rate
selected by Visa from the range of rates available in wholesale
currency markets for the applicable central processing date, which
may vary from the rate Visa itself receives, or the governmentmandated rate in effect for the applicable central processing date.
Page 2 of 3 | Revised 03/2021 | Insured by NCUA

Choice and Secured Variable Visa Credit Card Agreement
14. Plan Merchant Disputes. We are not responsible for the
refusal of any plan merchant or financial institution to honor your
Card. We are subject to claims and defenses (other than tort claims)
arising out of goods or services you purchase with the Card only
if you have made a good faith attempt, but have been unable to
obtain satisfaction from the plan merchant, and (a) your purchase
was made in response to an advertisement we sent or participated
in sending you; or (b) your purchase cost more than $50.00 and was
made from a plan merchant in your state or within 100 miles of your
home. Any other disputes you must resolve directly with the plan
merchant.
15. Inactivity. After 12 months of inactivity, as a fraud prevention
measure, WECU will place a block on your Credit Card. If you wish
to unblock your card please contact WECU.
16. Security Interest. You grant the Credit Union a security interest
under the Washington Uniform Commercial Code in any goods
purchased with your Card. You agree that all collateral you have
given the Credit Union to secure other consumer loan obligations
(except dwelling secured loans), in the past and in the future, will
secure your obligations under this Agreement. In addition, by signing
the Card Application, you have given the Credit Union a security
interest in all your deposits, present and future, and all accounts
(except Individual Retirement Accounts) with the Credit Union and
you agree, upon default, the Credit Union may apply all that is
secured to pay any amounts due under this Agreement, without
further notice to you.
17. Effect of Agreement. This Agreement is the contract that
applies to all transactions on your account even though the sales,
cash advance, credit or other slips you sign or receive may contain
different terms. We may amend this agreement from time to time
by sending you the advanced written notice required by law. Your
use of the Card thereafter will indicate your agreement to the
amendments. To the extent law permits, and we indicate in our
notice, amendments will apply to your existing account balance as
well as to future transactions.
18. Credit Card Billing Rights.
What To Do If You Find A Mistake On Your Statement.
If you think there is an error on your statement, write to us at the
Credit Union address on your statement.
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of the problem: If you think there is an error
on your bill, describe what you believe is wrong and why
you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount you
think is wrong.
You must notify us of any potential errors in writing. You may call us,
but if you do, we are not required to investigate any potential errors
and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter.
When we receive your letter, we must do two things:
(1) Within 30 days of receiving your letter, we must tell you that
we received your letter. We will also tell you if we have already
corrected the error.
wecu.com | 800-525-8703 | PO Box 9750, Bellingham, WA 98227

(2) Within 90 days of receiving your letter, we must either correct
the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question or report
you as delinquent on that amount.
• The charge in question may remain on your statement, and
we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you
are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount
in question or any interest or other fees related to that
amount.
• If we do not believe there was a mistake: You will have to
pay the amount in question, along with applicable interest
and fees. We will send you a statement of the amount you
owe and the date payment is due. We may then report you
as delinquent if you do not pay the amount we think you
owe.
If you receive our explanation but still believe your bill is wrong,
you must write to us within 10 days telling us that you still refuse to
pay. If you do so, we cannot report you as delinquent without also
reporting that you are questioning your bill. We must tell you the
name of anyone to whom we reported you as delinquent, and we
must let those organizations know when the matter has been settled
between us. If we do not follow the rules above, you do not have to
pay the first $50.00 of the amount you question even if your bill is
correct.
Your Rights If You Are Dissatisfied With Your Credit Card
Purchases. If you are dissatisfied with the goods or services that
you have purchased with your credit card, and you have tried in
good faith to correct the problem with the merchant, you may have
the right not to pay the remaining amount due on the purchase. To
use this right, all of the following must be true:
(1) The purchase must have been made in your home state
or within 100 miles of your current mailing address, and the
purchase price must have been more than $50.00. (Note:
Neither of these is necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company that
sold you the good or services.)
(2) You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.
(3) You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with
the purchase, contact us in writing. While we investigate, the same
rules apply to the disputed amount as discussed above. After we
finish our investigation, we will tell you our decision. At that point, if
we think you owe an amount and you do not pay, we may report you
as delinquent.

Page 3 of 3 | Revised 03/2021 | Insured by NCUA

